   May 11, 2005




Infrastructure and Environment

Office of Economic Adjustment Data
Call Submissions and Internal Control
Processes for Base Realignment and
Closure 2005
(D-2005-057)




            Department of Defense
           Office of Inspector General
Quality             Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
BRAC                  Base Realignment and Closure
COBRA                 Cost of Base Realignment Actions
DA&M                  Director, Administration and Management
DoD OIG               Department of Defense Office of Inspector General
DWO                   Defense-Wide Organizations
HSA                   Headquarters and Support Activities
ICP                   Internal Control Plan
JCSG                  Joint Cross Service Group
JPAT 7                Joint Process Action Team Criterion Number 7
N/A                   Not Applicable
OEA                   Office of Economic Adjustment
OSD                   Office of the Secretary of Defense
                            INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704




                                                                            May 11,2005
MEMORANDUM FOR DIRECTOR, OFFICE OF ECONOMIC ADJUSTMENT
SUBJECT: Report on Office of Economic Adjustment Data Call Submissions and
         Internal Control Processes for Base Realignment and Closure 2005
         (Report NO. D-2005-057)

        We are providing this report for information and use. No written response to this
report was required and none was received. Therefore, we are publishing this report in
final form.
       We appreciate the courtesies extended to the staff. Questions should be directed
to Deborah L. Carros at (703) 604-9217 (DSN 664-9217) or Ms. Beth. K. Schaefer at
(703) 604-9232 (DSN 664-9232). See Appendix B for Report Distribution. The team
members are listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:



                                          Richard B. ~ o l l a e
                                               Director
                                         Contract Management
               Department of Defense Office of Inspector General
Report No. D-2005-057                                                   May 11, 2005
   (Project No. D2004-D000CK-0129.000)

           Office of Economic Adjustment Data Call Submissions
                   and Internal Control Processes for Base
                       Realignment and Closure 2005

                                Executive Summary

Who Should Read This Report and Why? Office of the Secretary of Defense
personnel responsible for deciding the realignment or closure of military installations
based on the Base Realignment and Closure (BRAC) data calls, and Office of Economic
Adjustment management personnel should read this report. The report discusses the
validity and integrity of the data provided by the Office of Economic Adjustment to assist
the Secretary of Defense in BRAC 2005 recommendations.

Background. BRAC 2005 is the formal process outlined in Public Law 101-510,
“Defense Base Closure and Realignment Act of 1990,” as amended, under which the
Secretary of Defense may realign or close military installations. As part of BRAC 2005,
the Under Secretary of Defense for Acquisition, Technology, and Logistics issued
“Transformation Through Base Realignment and Closure (BRAC 2005) Policy
Memorandum One–Policy, Responsibilities, and Procedures,” April 16, 2003, which
stated that the Department of Defense Office of Inspector General would review the
accuracy of BRAC data and the certification process.

The BRAC 2005 data collection process was mandated for the United States and its
territories and was divided into the following data calls: capacity analysis, supplemental
capacity, military value, Cost of Base Realignment Actions, Joint Process Action Team
Criterion Number 7, and scenario specific. The supplemental capacity, military value,
Cost of Base Realignment Actions, and Joint Process Action Team Criterion Number 7
data calls were collectively known as the second data call. Subsequent to our review, the
Joint Process Action Team Criterion Number 7 group requested clarification on some
responses, which may have resulted in changes to responses; we did not review those
responses.

The Office of Economic Adjustment is one of 11 Defense-Wide Organizations. The
Office of Economic Adjustment consists of two locations: Headquarters located in
Arlington, Virginia, and a Western Region office located in Sacramento, California. The
Office of Economic Adjustment is the Department of Defense’s primary source for
assisting communities adversely impacted by Defense changes, including base closures
and realignments, base expansions, and contract or program cancellations. We visited the
Office of Economic Adjustment Headquarters for the capacity analysis and second data
calls. As of February 15, 2005, the Office of Economic Adjustment had not received any
scenario data calls. The Office of Economic Adjustment Headquarters personnel
responded to both data calls on behalf of Headquarters and the Western Region office.
We issued one site memorandum to the Director of the Office of Economic Adjustment
on May 12, 2004, summarizing the audit results of the capacity analysis data call and one
site memorandum to the Director of the Office of Economic Adjustment on
November 30, 2004, summarizing the audit results of the second data call. This report
summarizes issues related to the entire Office of Economic Adjustment BRAC 2005
process, as of February 15, 2005.

Results. We evaluated the validity, integrity, and supporting documentation of the
Office of Economic Adjustment BRAC 2005 data and compliance with the Office of the
Secretary of Defense’s and the Defense-Wide Organization’ internal control plans.
Office of Economic Adjustment responses to the BRAC 2005 data calls were generally
accurate, supported, and reasonable. However, the Office of Economic Adjustment
provided one partially supported response to the capacity analysis data call and four
inaccurate responses to the second data call. We were unable to determine the materiality
on the Office of Economic Adjustment BRAC 2005 analysis of the partially supported
response to the capacity analysis data call and three of the four inaccurate responses to
the second data call. We determined one of the four inaccurate responses to the second
data call was not material and should not affect the reliability of the Office of Economic
Adjustment data for use in the BRAC 2005 process.

Additionally, the Office of Economic Adjustment generally complied with applicable
internal control plans and properly incorporated and supplemented the Office of the
Secretary of Defense’s Internal Control Plan; however, the Office of Economic
Adjustment had two internal control plan noncompliances. Specifically, the Office of
Economic Adjustment did not properly mark all BRAC-related supporting documents
until notified of the noncompliance, and did not compile supporting documentation for
the second data call responses until after submission to the Office of the Secretary of
Defense BRAC Office. We determined the two internal control plan noncompliances
were not material and should not affect the integrity of the Office of Economic
Adjustment data for use in the BRAC 2005 process.

Management Comments. We provided a draft of this report on April 26, 2005. No
written response to this report was required and none was received. Therefore, we are
providing this report in final form.




                                            ii
Table of Contents
Executive Summary                                                         i

Background                                                               1

Objectives                                                               3

Finding
     Office of Economic Adjustment BRAC 2005 Data Call Submissions and
       Internal Control Processes                                         4

Appendixes
     A. Scope and Methodology                                             8
          Management Control Program Review                              10
          Prior Coverage                                                 10
     B. Report Distribution                                              11
Background
    BRAC 2005. Public Law 101-510, “Defense Base Closure and Realignment Act
    of 1990,” as amended, establishes the procedures under which the Secretary of
    Defense may realign or close military installations inside the United States and its
    territories. The law authorizes the establishment of an independent Commission
    to review the Secretary of Defense recommendations for realigning and closing
    military installations. The Secretary of Defense established and chartered the
    Infrastructure Executive Council and the Infrastructure Steering Group as the
    Base Realignment and Closure (BRAC) 2005 deliberative bodies responsible for
    leadership, direction, and guidance. The Secretary of Defense must submit
    BRAC recommendations to the independent Commission by May 16, 2005.

    Joint Cross Service Groups. A primary objective of BRAC 2005, in addition to
    realigning base structure, is to examine and implement opportunities for greater
    joint activity. The Office of the Secretary of Defense (OSD) established seven
    Joint Cross Service Groups (JCSG): Education and Training, Headquarters and
    Support Activities (HSA), Industrial, Intelligence, Medical, Supply and Storage,
    and Technical. The JCSGs address issues affect common business-oriented
    support functions, examine functions in the context of facilities, and develop
    realignment and closure recommendations based on force structure plans of the
    Armed Forces and on selection criteria. To analyze the issues, each JCSG
    developed data call questions to obtain information about the functions that it
    reviewed.

    BRAC 2005 Data Calls. The BRAC 2005 process was mandated for the United
    States and its territories and was divided into the following data calls: capacity
    analysis, supplemental capacity, military value, Cost of Base Realignment
    Actions (COBRA), Joint Process Action Team Criterion Number 7 (JPAT 7), and
    scenario specific. The first data call addressed capacity analysis issues. The
    supplemental capacity, military value, COBRA, and JPAT 7 data calls were
    collectively known as the second data call. The Services, Defense agencies, and
    Defense-Wide Organizations (DWOs) used either automated data collection tools
    or a manual process to collect data call responses. Each data call had a specific
    purpose as follows.

           •   The capacity analysis data call requested data on infrastructure, current
               workload, surge requirements, and maximum capacity.

           •   The supplemental capacity data call requested data to clarify
               inconsistent data gathered in the initial capacity analysis data call.

           •   The military value data call requested data on mission requirements,
               land and facilities, mobilization and contingency, and cost and
               personnel.

           •   The COBRA data call requested data to develop costs, savings, and
               payback (formerly known as return on investment) of proposed
               realignment and closure actions.




                                          1
                    •   The JPAT 7 data call requested data to assess the community’s
                        abilities to support additional forces, mission, and personnel associated
                        with individual scenarios.

                    •   The scenario specific data call requested data related to one or more
                        potential closure or realignment actions identified for formal analysis
                        by either a JCSG or a Military Department.

           DWOs. DWO is a collective term for 11 Defense Organizations.1 The Office of
           Economic Adjustment (OEA) is one of the 11 DWOs. The OSD Director,
           Administration and Management (DA&M) led the DWO BRAC 2005 process and
           was responsible for collecting and submitting BRAC data for all of the DWOs.
           The OSD DA&M was the primary data repository for all DWO data collections
           and requests, and assembled and forwarded BRAC-related data to the OSD
           BRAC Office and the JCSGs.

           Internal Control Plans. Before the BRAC data calls were released, OSD
           distributed the OSD Internal Control Plan (ICP) under the Under Secretary of
           Defense for Acquisition, Technology, and Logistics’ memorandum,
           “Transformation Through Base Realignment and Closure (BRAC 2005) Policy
           Memorandum One–Policy, Responsibilities, and Procedures” (Policy
           Memorandum One), April 16, 2003. The OSD ICP was the ICP for all JCSGs
           and guided and regulated the DoD Component ICPs. The OSD ICP required that
           prepare ICPs that supplement the OSD ICP. OSD DA&M prepared an overall
           “Defense-Wide Organizations Internal Control Plan for the 2005 Base
           Realignment and Closure Process,” on January 15, 2004. TheDWO ICP and
           Appendixes L and M applied to the 11 DWOs. Each DWO prepared an
           organization-specific appendix to supplement the overall DWO ICP; Appendix F
           applied to OEA. The DWO ICP was updated on August 2, 2004. OEA used a
           manual process to collect data for the capacity analysis data call, used the Data
           Gathering Tool, a modified Microsoft Access tool for those not using an
           automated data collection tool, to collect data for the second data call.

           DoD Office of Inspector General Responsibility. Policy Memorandum One
           requires the Department of Defense Office of Inspector General (DoD OIG) to
           provide ICP development and implementation advice, review the accuracy of
           BRAC data, and evaluate the data certification processes. In addition, Policy
           Memorandum One requires DoD OIG personnel to assist the JCSGs and DoD
           Components as needed. We issued one site memorandum to the Director, OEA
           on May 12, 2004, summarizing the audit results of the capacity analysis data call
           and one site memorandum to the Director, OEA on November 30, 2004,
           summarizing the results of the second data call. As of February 15, 2005, the
           Office of Economic Adjustment had not received any scenario data calls.

           OEA. OEA consists of two office locations: its Headquarters located in
           Arlington, Virginia, and a Western Region office in Sacramento, California.
           OEA is the DoD primary source for assisting communities impacted by DoD
           changes, including base closures and realignments, base expansions, and contract

1
    The 11 DWOs are the American Forces Information Service, Defense Human Resources Activity,
    Defense Technology Security Administration, DoD Education Activity, Defense Prisoner of War/Missing
    Personnel Office, Joint Chiefs of Staff, Office of Economic Adjustment, Department of Defense Office of
    Inspector General, OSD, TRICARE Management Activity, and Washington Headquarters Services.



                                                      2
    or program cancellations. OEA manages and directs the Defense Economic
    Adjustment Program to assist affected communities and coordinates involvement
    of other Federal agencies. OEA provides a community-based context for
    assessing economic hardships by identifying and evaluating alternative courses of
    action, identifying resource requirements, and assisting in the preparation of an
    adjustment strategy. In addition, OEA provides technical and financial assistance
    to State and local governments with the mission to achieve compatible land use
    and development of activities near DoD facilities.


Objectives
    The overall objective of the audit was to evaluate the validity, integrity, and
    supporting documentation of data that OEA collected and submitted for the
    BRAC 2005 process. In addition, we evaluated whether OEA complied with the
    applicable ICPs. This report is one in a series on data call submissions and
    internal control processes for BRAC 2005. See Appendix A for a discussion of
    the scope and methodology and prior coverage related to the audit objectives.




                                        3
           Office of Economic Adjustment BRAC
           2005 Data Call Submissions and Internal
           Control Processes
           OEA responses to the BRAC 2005 data calls were generally accurate,
           supported, and reasonable. However, OEA partially supported one
           response to the capacity analysis data call and had four inaccurate
           responses to the second data call. In addition, OEA generally complied
           with the applicable ICPs, and properly incorporated and supplemented the
           OSD ICP. However, OEA had two ICP noncompliances. Specifically:

               •   OEA did not properly mark all BRAC-related documents used to
                   support both data call responses until notified of the
                   noncompliance during our visit, and

               •   OEA compiled documentation to support the second data call
                   responses after submitting the responses to the OSD BRAC Office.

           We were unable to determine the validity of the partially supported
           response to the capacity analysis data call and three of the four inaccurate
           responses to the second data call. We also could not determine the
           materiality of those responses as they relate to the OEA BRAC 2005
           analysis. However, we determined one of the four inaccurate responses to
           the second data call and the two ICP noncompliances were not material.
           As a result, the inaccurate responses and ICP noncompliances should not
           affect the reliability and integrity of OEA data for use in the BRAC 2005
           analysis.


OEA BRAC 2005 Data Call Submissions
    The OEA responses to the BRAC 2005 data calls were generally accurate,
    supported, and reasonable. OEA provided either a response of “Not Applicable”
    (N/A) or an answer to the capacity analysis and second data call questions. To
    ensure accurate responses, we reviewed the N/A responses to determine
    reasonableness and compared the answers to supporting documentation. We did
    not verify that OEA responses were entered into the OSD Database.

    Capacity Analysis Data Call. OEA responses to the capacity analysis data call
    were generally accurate, supported, and reasonable. OEA provided the responses
    to the capacity analysis data call on behalf of OEA Headquarters and the OEA
    Western Region office. OSD DA&M directed OEA to respond to 75 of the 752
    capacity data call questions identified as applicable to the DWOs by the HSA
    JCSG. OSD DA&M directed OEA to review the remainder of the 752 questions
    to determine if any remaining questions were applicable to OEA. OEA reviewed
    the remainder of the questions and identified two additional questions. As a
    result, OEA responded to 77 capacity analysis data call questions either with an
    N/A response or an answer. OEA responded to 73 questions with an N/A
    response and to 4 questions with an answer. We determined that the 73 N/A
    responses were reasonable and 3 of the 4 answered questions were adequately


                                         4
           supported. However, one of the four answered questions was only partially
           supported. Specifically, OEA provided answers to all three subparts of question
           462.2 OEA answers for two subparts were accurate and supported. For the third
           subpart of question 462, OEA provided a certified organizational chart to support
           the number of contract employees. Subsequent to our visit, we determined the
           organizational chart was inadequate source documentation for validating the
           accuracy of the answer. We were unable to determine the validity of the
           response, and we could not determine the materiality of the response as it relates
           to the BRAC 2005 analysis.

           Second Data Call. The OEA responses to the second data call were generally
           accurate, supported, and reasonable. OSD DA&M directed OEA to respond to 48
           of 83 second data call questions identified as applicable to the DWOs. OSD
           DA&M directed OEA to review the remainder of the 83 questions to determine
           whether any additional questions were applicable to OEA. OEA reviewed the
           remainder of the questions and identified 25 additional questions. As a result,
           OEA responded to 73 second data call questions.3 Specifically, OEA responded
           to 9 HSA JCSG supplemental capacity questions, 36 HSA JCSG military value
           questions, 8 COBRA questions, and 20 JPAT 7 questions either with an N/A
           response or an answer. Subsequent to our review the JPAT 7 group requested
           clarification on some responses, which may have resulted in changes to responses;
           we did not review those responses. OEA responded to the HSA JCSG
           supplemental capacity, the HSA JCSG military value, and the COBRA questions
           for OEA Headquarters and the Western Region office. However, OEA responded
           to the JPAT 7 questions for OEA Headquarters only. OEA did not respond to the
           JPAT 7 questions for the OEA Western Region office because OEA determined
           that responses for that location were not material to the OEA BRAC 2005
           analysis.

           OEA responded to 39 questions with an N/A response. We determined 37 of the
           39 N/A responses were reasonable. OEA inaccurately provided N/A responses to
           2 COBRA questions (1501 and 1505) that were specific to OEA4 and should have
           been answered. We made this determination subsequent to our visit to OEA and
           we did not discuss this determination with OEA management. We were unable to
           determine the validity of the responses, and we could not determine the
           materiality of the responses as they relate to the OEA BRAC 2005 analysis.

           OEA answered 34 questions. We determined 2 of the 34 questions answered
           (COBRA question 1506 and JPAT 7 question 1412) were inaccurate.
           Specifically, OEA provided an answer to COBRA question 1506 that was not
           applicable to OEA. COBRA question 1506 was directed to activities that
           contained DoD tenants. OEA was a tenant of another agency and did not have

2
    Capacity analysis data call question number 462 asked for the building number, name, address, DoD host,
    and usable square feet assigned by the host for each building of leased administrative space occupied
    within the Washington, D.C., area. Additionally, the question asked for the personnel breakdown of
    authorized and on-board contractors per building.
3
    For the second data call, the HSA JCSG targeted OEA with its supplemental capacity and military value
    questions. Additionally, COBRA and JPAT 7 questions were targeted to stand-alone or host activities,
    including leased facilities; OEA locations were in leased facilities.
4
    COBRA question 1501 asked for the total thousands of square feet of facilities existing at the DWO
    installation as of September 30, 2003. COBRA question 1505 asked for the number of Officer, Enlisted,
    Student, and Civilians authorized each year from FY 2005 through FY 2011 within the DWO installation.



                                                      5
           tenants at either Headquarters or the Western Region office. We determined the
           OEA response to COBRA question 1506 should have been N/A. We made this
           determination subsequent to our visit to OEA and we did not discuss our
           determination with OEA management. We were unable to determine the validity
           of the answer, and we could not determine the materiality of this answer as it
           relates to the OEA BRAC 2005 analysis. OEA also provided an inaccurate
           answer to JPAT 7 question 1412; however, we determined the inaccuracy was not
           material to the OEA BRAC 2005 process.

           We did not determine whether the responses to JPAT 7 question numbers 1407
           and 1409 were accurate and supported. The OSD BRAC Office advised OEA to
           obtain answers for JPAT 7 questions 1407 and 1409 from Fort Myer, and we did
           not audit the accuracy or the supporting documentation for the answers received
           from Fort Myer. We also did not determine whether the responses for HSA JCSG
           military value questions 19075 and 19086 were accurate and supported.
           Specifically, OEA provided supporting documentation for answers to questions
           1907 and 1908, which consisted of a memorandum explaining estimates that
           could not be validated.


Internal Control Processes
           OEA generally complied with the applicable ICPs and properly incorporated and
           supplemented the OSD ICP. We reviewed OEA compliance to determine
           whether the OEA data gathering process complied with applicable ICPs. We
           reviewed whether OEA personnel completed nondisclosure agreements and
           properly collected, marked, safeguarded, and maintained BRAC data.
           Specifically, we reviewed the completeness of BRAC documentation and ensured
           that BRAC information was secured in locked containers and marked with
           “Deliberative Document-For Discussion Purposes Only-Do Not Release Under
           FOIA.” In addition, we reviewed the completeness of the DWO ICP and
           determined that the DWO ICP properly supplemented the OSD ICP.

           Compliance With the ICPs. OEA generally complied with the applicable ICPs
           when responding to questions from both data calls; however, we identified two
           ICP noncompliances. Specifically, OEA did not properly mark some of the
           BRAC-related documents used to support responses to both data call questions.
           However, once notified of this during our visit, OEA properly marked the
           supporting documentation in accordance with the ICPs. In addition, OEA did not
           compile the documentation to support responses until after OEA submitted the
           second data call responses to the OSD BRAC Office. OEA was unable to resolve
           this noncompliance; however, once compiled, OEA kept the supporting
           documentation with the responses in a locked container and appropriately
           safeguarded. OEA provided generally accurate, supported, and reasonable
           responses to both data calls; therefore, we determined the noncompliances were


5
    HSA JCSG military value question 1907 asked for the number of meetings between an organization’s
    senior officials, including flag officers, and senior officials from another organization located in the
    Washington, D.C., area.
6
    HSA JCSG military value question 1908 asked for the number of meetings between an organization’s
    senior officials, including flag officers, and members of Congress or their staffs.



                                                        6
    not material to the BRAC 2005 process and should not affect the integrity of the
    OEA data for use in the BRAC 2005 analysis.

    Completeness of the ICPs. The DWO ICP properly incorporated and
    supplemented the OSD ICP; however, neither ICP addressed separation of duties
    controls. Appendix F to the DWO ICP established OEA responsibilities and
    outlined management control mechanisms to provide accountability and to
    safeguard OEA BRAC information. In addition, the DWO ICP identified
    documentation required to justify changes made to data and information after it
    had been certified and sent to the OSD BRAC Office. Both ICPs included
    direction on completing nondisclosure agreements and on collecting, marking,
    safeguarding, and maintaining BRAC data. Although both ICPs identified
    guidance on safeguarding and accountability of BRAC information, neither ICP
    addressed separation of duties controls. Specifically, the ICPs did not require the
    assignment of different personnel as the responder, reviewer, and trusted agent.
    Although the ICPs did not direct that separation of duties be present, OEA had
    separation of duties when responding to the data call questions.


Conclusion
    OEA responses to the BRAC 2005 data calls were generally accurate, supported,
    and reasonable. However, OEA provided one partially supported response to the
    capacity analysis data call and had four inaccurate responses to the second data
    call. We were unable to determine the materiality of the partially supported
    response to the capacity analysis data call and three of the four inaccurate
    responses to the second data call. However, we determined one of the four
    inaccurate second data call responses was not material and should not affect the
    reliability of the OEA data for use in the BRAC 2005 analysis.

    Additionally, OEA generally complied with applicable ICPs and properly
    incorporated and supplemented the OSDICP. However, OEA had two ICP
    noncompliances. OEA corrected one ICP noncompliance during our visit by
    properly marking all BRAC-related supporting documents. OEA did not compile
    supporting documentation for the second data call responses as required by the
    ICPs until after submitting the responses to the OSD BRAC Office. The OEA
    responses were generally accurate, supported, and reasonable; therefore, we
    determined the two ICP noncompliances were not material and should not affect
    the integrity of the OEA data for use in the BRAC 2005 process.




                                         7
Appendix A. Scope and Methodology
   We evaluated the validity, integrity, and supporting documentation of OEA
   BRAC 2005 data. The evaluation included comparing responses with supporting
   documentation and reviewing N/A responses to determine whether the responses
   were reasonable. Questions had either an answer or an N/A response; an N/A
   response was provided for questions determined not to apply to OEA.

   We evaluated the data collection process to determine whether OEA followed the
   OSD ICP guidance to develop an ICP, maintained adequate documentation to
   support the data collection process, and established adequate internal control
   procedures to ensure that data call responses were complete and accurate. We
   ensured that the DWO ICP incorporated and supplemented the requirements of
   the OSD ICP and reviewed OEA compliance with the ICPs. We evaluated OEA
   data collection procedures, to include reviewing the completion of nondisclosure
   agreements and the collection, marking, safeguarding, and maintenance of BRAC
   data. In addition, we interviewed the Associate Director and the Administrative
   Officer who helped prepare the capacity analysis data call. The Deputy Director
   reviewed and certified the official responses to the capacity analysis data call
   questions. For the second data call, we interviewed the Associate Director who
   prepared the official OEA responses. The Deputy Director reviewed and certified
   the responses to the second data call responses. We reviewed documentation
   dated from January 1992 through September 2004. We did not verify that OEA
   responses were entered into the OSD Database.

   Capacity Analysis Data Call. A January 23, 2004, OSD DA&M memorandum
   directed DWO trusted agents to answer 75 of 752 capacity analysis data call
   questions identified as applicable to DWOs by the HSA JCSG. In addition, OSD
   DA&M directed OEA to review the remainder of the 752 questions to determine
   if any remaining questions were applicable to OEA. OEA reviewed the
   remaining 752 questions and determined 2 additional questions were applicable to
   OEA. As a result, OEA responded to a total of 77 capacity analysis data call
   questions on behalf of OEA Headquarters and the OEA Western Region office.
   We reviewed the OEA responses to the capacity analysis data call at OEA
   Headquarters. We did not validate the OSD DA&M or OEA selection process or
   the questions not selected.

   We evaluated the OEA responses to 77 capacity analysis data call questions.

          •   We reviewed N/A responses for the following 73 questions to
              determine reasonableness: 310, 313 through 329, 347 through 388,
              393, 446 through 448, 461, 464, 468, 469, 478, 480 through 482, and
              582.

          •   We reviewed answers to questions 311, 462, 466, and 471 for accuracy
              and adequate support.

   We issued a site memorandum to the Director, OEA on May 12, 2004,
   summarizing the results of our site visit.

   Second Data Call. OEA received guidance from OSD DA&M on June 18, 2004,
   June 23, 2004, and July 22, 2004, directing OEA to respond to 48 of 83 second


                                       8
          data call questions identified as applicable to the DWOs. OSD DA&M directed
          OEA to review the remainder of the 83 questions to determine whether any
          remaining questions were applicable to OEA. OEA reviewed the remainder of
          the questions and identified 25 additional applicable questions. As a result, OEA
          responded to 73 second data call questions. Specifically, OEA responded to 9
          HSA JCSG supplemental capacity questions, 36 HSA JCSG military value
          questions, 8 COBRA questions, and 20 JPAT 7 questions either with an answer or
          an N/A response. OEA responded to 34 second data call questions with an
          answer and 39 questions with N/A; we reviewed OEA responses to the second
          data call questions at OEA Headquarters. The following table lists the responses
          that we reviewed.


                                   Second Data Call Questions Reviewed

                                                           Question Number
          Type of Question                Answered                        Not Applicable
          HSA JCSG               4099-4103                          4079-4081 and 4096
          Supplemental
          Capacity
          HSA JCSG               1905, 1907-1911, 1913, and           1900, 1904, 1906, 1912,
          Military Value         1916                                 1914, 1915, 1917-1927, and
                                                                      1947-1957
          COBRA                  1506                                 1500-1505 and 1507
          JPAT 7                 1400-1417, 1420, and 1421*           None



          OEA responded to the JPAT 7 questions for OEA Headquarters only. OEA did
          not respond to the JPAT 7 questions for the OEA Western Region office because
          OEA determined that responses for that location were not material to the OEA
          BRAC 2005 analysis. We audited the second data call responses for OEA during
          the period from July 27, 2004, through October 25, 2004. Subsequent to our
          review, the JPAT 7 group requested clarification on some responses, which may
          have resulted in changes to responses; we did not review those responses. In
          addition, we did not make a determination on whether the responses to JPAT 7
          questions 1407 and 1409 were accurate and supported because OEA obtained
          answers from Fort Myer. We also did not make a determination whether HSA
          JCSG military value question numbers 1907 and 1908 were accurate and
          supported because supporting documentation consisted of a memorandum
          explaining estimates that could not be validated. We issued a site memorandum
          to the Director, OEA on November 30, 2004, summarizing the results of our
          review of the second data call questions.

          Scenario Specific Data Call. As of February 15, 2005, OEA had not received
          any scenario specific data calls.



*
    The JPAT 7 group replaced JPAT 7 questions 1418 and 1419 with 1420 and 1421.



                                                   9
     We performed this audit from March 2004 through April 2005 in accordance with
     generally accepted government auditing standards.

     Use of Computer-Processed Data. We did not test the accuracy of the
     computer-processed data used to support answers to data call questions because of
     time constraints. Potential inaccuracies in the data could impact the results.
     However, the BRAC data were certified as accurate and complete to the best of
     the certifier’s knowledge and belief. OEA used a manual process, Microsoft
     Word, to collect data for the capacity analysis data call, and used the Data
     Gathering Tool, a modified Microsoft Access tool for those not using an
     automated data collection tool, to collect data for the second data call. We did not
     review the data collection tools used.

     Government Accountability Office High-Risk Areas. The Government
     Accountability Office has identified several high-risk areas in DoD. This report
     provides coverage of the Management of Federal Real Property and the DoD
     Support Infrastructure Management high-risk areas.

Management Control Program Review
     We evaluated the OEA management controls for preparing, submitting,
     documenting, and safeguarding information associated with the BRAC 2005 data
     calls, as directed by the applicable ICPs. Specifically, we reviewed procedures
     that OEA used to develop, submit, and document its data call responses. In
     addition, we reviewed the controls implemented to safeguard against the
     disclosure of OEA BRAC data before responses were forwarded to the OSD
     BRAC Office. Management controls were adequate as they applied to the audit
     objective (see finding for specific details). We did not review the OEA
     management control program because its provisions were not deemed applicable
     to the one-time data collection process.


Prior Coverage

     During the last 5 years, the DoD Inspector General issued two site memorandums
     discussing the OEA BRAC 2005 data call submissions and internal control
     processes.

DoD Inspector General
     Site Memorandums

     DoD IG Memorandum, “Audit of the Second Data Call Submission From the
     Office of Economic Adjustment for Base Realignment and Closure 2005,”
     November 30, 2004

     DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
     From the Office of Economic Adjustment for Base Realignment and Closure
     2005,” May 12, 2004



                                         10
Appendix B. Report Distribution

Office of the Secretary of Defense
Director, Base Realignment and Closure (Installations and Environment)
Director, Office of Economic Adjustment

Non-Defense Federal Organization
Government Accountability Office




                                          11
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Contract Management prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed
below.

Richard B. Jolliffe
Deborah L. Carros
Deborah L. Culp
Beth K. Schaefer
Karen L. Jones-Moradian
Peter I. Lee
Amie M. Coffren
Meredith H. Johnson
